           Evaluation Report



  Benefit Payments Managed by
Representative Payees of Children in
 California’s Foster Care Program




       A-13-13-23029 | August 2014
MEMORANDUM


Date:      August 14, 2014                                                    Refer To:

To:        Grace M. Kim
           Regional Commissioner
            San Francisco
From:      Inspector General
Subject:   Benefit Payments Managed by Representative Payees of Children in California’s Foster Care
           Program (A-13-13-23029)

           The attached final report presents the results of our audit. Our objective was to identify children
           in California’s foster care program served by representative payees who may not have been
           suitable.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Benefit Payments Managed by Representative Payees of
Children in California’s Foster Care Program
A-13-13-23029
August 2014                                                               Office of Audit Report Summary

Objective                                 Our Findings

To identify children in California’s      The State of California reported that, while it used SVES to validate
foster care program served by             Social Security numbers, it did not use the system to determine
representative payees who may not         whether children were receiving Social Security payments.
have been suitable.
                                          Of the 50 children in our sample, SSA concluded that 30 had
Background                                unsuitable representative payees, 17 had suitable payees, and 3 did
                                          not have completed assessments. However, in one case, the payee
The Social Security Administration        became the child’s foster care parent after our review began and an
(SSA) selects representative payees for   assessment was not necessary. Of the 30 children who had
individuals who are not able to manage    unsuitable payees, SSA determined 15 payees misused about
or direct the management of their         $87,000 in Social Security payments. For 11 children, the Agency
finances because of their youth or        planned to complete reviews to determine whether payees misused
mental and/or physical impairment.        payments that belonged to the children. SSA concluded there were
According to SSA, foster care agencies    four children with unsuitable payees who did not misuse payments.
have traditionally been among its most
dependable payees. State foster care      Based on our sample results, we estimate unsuitable payees served
agencies may not always know              359 children. Of these, we estimate representative payees misused
whether the child is receiving SSA        about $1 million in benefit payments for 180 children. If the
payments. States can use SSA’s State      Agency does not identify and replace the unsuitable payees, we
Verification and Exchange System          estimate the unsuitable representative payees will misuse an
(SVES) to determine whether the child     additional $552,000 during the next 12 months.
is receiving Social Security payments.
                                          Our Recommendations
The California Department of Social
Services (CDSS) supervises the foster     1. Advise CDSS to expand its use of SVES to include verifying
care program throughout the State.           whether a child is receiving SSA payments.
However, county agencies administer
the program.                              2. Complete suitability assessments of payees serving 2 children;
                                             complete misuse assessments of unsuitable payees serving
We performed a computerized                  11 children; and appoint a new payee for 1 child whose
comparison of foster care data with          representative payee committed misuse and continues to serve
SSA’s beneficiary records to identify        as the child’s payee.
children served by representative
payees who were not the county            3. Conduct suitability assessments for the representative payees
agency or foster care parents.               associated with the remaining 288 children in current pay status
                                             as of January 3, 2014 with payees who were not a county
                                             agency or the foster care parent(s).

                                          SSA agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     SSA’s Suitability Assessments ..................................................................................................4
     Unsuitable Representative Payees .............................................................................................4
     Suitable Representative Payees..................................................................................................6
Conclusions ......................................................................................................................................7
Recommendations ............................................................................................................................8
Agency Comments ...........................................................................................................................8
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology....................................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)
ABBREVIATIONS
CDSS                 California Department of Social Services

CWS                  Child Welfare Services

OASDI                Old-Age, Survivors and Disability Insurance

OI                   Office of Investigations

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

SVES                 State Verification and Exchange System

U.S.C.               United States Code




Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)
OBJECTIVE
The objective of our review was to identify children in California’s foster care program served
by representative payees who may not have been suitable.

BACKGROUND
Some beneficiaries are not able to manage or direct the management of their finances because of
their youth or mental and/or physical impairment. For these beneficiaries, Congress provided for
payment through a representative payee who receives and manages payments on the
beneficiary’s behalf. 1 A representative payee may be an individual or an organization. The
Social Security Administration (SSA) selects representative payees for Old-Age, Survivors and
Disability Insurance (OASDI) 2 and Supplemental Security Income (SSI) 3 beneficiaries 4 when
payments to a representative payee would serve the individual’s interests.

According to SSA policy, 5 cases involving children in foster care are among the most sensitive.
It is essential that SSA protect the rights of children and their Social Security payments.
Therefore, it is important that SSA follow its requirements to ensure children in foster care have
the appropriate representative payee.

SSA policy6 states, “Foster care agencies have traditionally been among SSA’s most dependable
payees; however, their appointment as rep [representative] payee is not automatic . . . when a
child is removed from parental custody and the court places the child in the custody of a foster
care agency, the agency has legal custody of the child . . . .” Sometimes, the foster care agency
is also the child’s legal guardian. SSA policy 7 states that a child’s legal guardian has a higher
standing on the payee preference list than an agency that has a custodial relationship.

SSA may not always be aware a child is in foster care. The Agency relies on a payee to report
changes pertaining to beneficiaries served. SSA policy8 states that payee responsibilities include
reporting address and custody changes. If the payee does not report when children leave their
care, SSA may not know that a child is now being served by a foster care program.



1
    Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii); 42 U.S.C. §§ 405(j)(1)(A) and 1383(a)(2)(A)(ii).
2
 The OASDI program provides retirement and disability benefits to qualified individuals and their dependents as
well as to survivors of insured workers. Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
3
 The SSI program provides payments to individuals who have limited income and resources and who are age 65 or
older, blind, or disabled. Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
4
    We use the term “beneficiaries” generically in this report to refer to both OASDI beneficiaries and SSI recipients.
5
    SSA, POMS, GN 00502.159 A. (June 25, 2007).
6
    SSA, POMS, GN 00502.159 A. and B.2. (June 25, 2007).
7
    SSA, POMS, GN 00502.105 B. (August 2, 2011).
8
    SSA, POMS, GN 00502.114 A. (February 27, 2014).



Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)                        1
The California Department of Social Services (CDSS) supervises the Child Welfare Services
(CWS) system and foster care program throughout the State. However, county agencies actually
administer the CWS system and foster care program. The CWS system is an array of programs
and services, such as foster care, designed to protect neglected and abused children. Foster care
is the 24-hour, out-of-home care provided to children who need substitute parenting because
their own families are unable or unwilling to care for them. After the State removes children
from their parents’ care, it is responsible for providing for the children’s safety and well-being.

The State foster care agency may not always know whether a child is receiving Social Security
payments. Therefore, States can use SSA’s State Verification and Exchange System (SVES) to
determine whether the child is receiving Social Security payments. 9 If the child is receiving
payments, the State foster care agency can apply to SSA to become the child’s representative
payee. However, SSA determines who is best suited to be the child’s representative payee. We
requested information from CDSS to determine whether it used SVES. According to a CDSS
official, its use of SVES was limited to Social Security number validation. The State agency did
not use SVES to determine whether children were receiving Social Security payments.

In December 2012, we performed a computerized comparison of October 2012 foster care data
provided by CDSS with SSA’s beneficiary records. This comparison identified 4,397 children
who were being served by representative payees in California’s foster care program. See Table 1
for details.

      Table 1: Representative Payees of Children in California’s Foster Care Program
                                                                       Payee is
           Type of SSA            Payee is         Payee is
                                                                       Neither              Total
            Payment               County          Foster Care
                                                                      Agency nor           Children
            Received              Agency            Parent
                                                                       Parent 10
               OASDI                1,563                 631              473                 2,667
                SSI                   945                 412              220                 1,577
           OASDI and SSI              109                  35                9                   153
               Totals               2,617              1,078                 702               4,397

We identified 702 children who were being served by representative payees who were not the
county agency or foster care parents. We believe these children’s payments were at a higher risk
of misuse since these payees may not have had contact with the children. The payees included
such individuals as the children’s mothers, fathers, and relatives as well as others who received
and managed about $4.4 million in payments, annually.



9
 SSA’s SVES provides authorized State partners with a standardized method to verify Social Security numbers and
OASDI and SSI benefit information.
10
  When the payee was neither a county agency nor a foster care parent, but the child’s address matched that of an
agency or foster care parent, we included the children in one of the other two categories.



Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)                  2
Of the 702 children, we found 599 received $100 or more a month in Social Security payments.
We randomly selected 50 of the 599 children for review. For these 50 children, we requested
SSA perform suitability assessments to determine whether the children had appropriate
representative payees. Since these children had payees who were neither the foster care agency
nor the foster care parent, we were concerned they may not have had suitable payees to manage
their Social Security payments. See Appendix A for our scope and methodology and
Appendix B for our sampling methodology.

RESULTS OF REVIEW
The payees serving the children in our sample were not county agencies or foster care parents.
Generally, the payees did not report to SSA that the children had been placed in foster care. Of
the 50 children in our sample, SSA concluded that 30 had unsuitable 11 representative payees, and
17 had suitable payees. As of March 2014, the Agency had not determined whether payees
serving two children were suitable. However, according to SSA’s records, as of July 17, 2014,
one child’s benefits were terminated. The second child was in current pay and the payee had not
been changed. The remaining child’s representative payee became the child’s foster care parent
after our review began. Thus, an assessment was not necessary (see Figure 1).

Of the 30 children with unsuitable payees, SSA determined 15 payees misused about $87,000 in
Social Security payments. For 11 children, the Agency plans to complete reviews to determine
whether the unsuitable representative payees misused payments belonging to the children. SSA
concluded that representative payees for four children were unsuitable, but they did not misuse
payments.




11
  The Agency assesses the payee’s suitability based on whether payments are used properly and whether the payee
continues to be the best choice.



Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)                3
                                    Figure 1: Results of Review




Based on the results of SSA’s assessments, we estimate unsuitable payees served 359 children in
California’s foster care program. Of these, we estimate unsuitable representative payees misused
about $1 million in payments for 180 children. If the Agency does not identify and replace the
unsuitable payees who misused Social Security payments, we estimate the representative payees
will misuse an additional $552,000 during the next 12 months.

SSA’s Suitability Assessments
Of the 50 children in our sample, SSA performed suitability assessments of the representative
payees and determined the payees for 30 were unsuitable while payees for 17 were suitable. Of
the 47 payees SSA assessed, payees did not report 39 children’s placement in foster care. SSA
did not complete suitability assessments for three children’s payees. One child relocated to
Dallas, Texas, where the payee resided—outside the region where SSA was conducting the
assessments. The other child beneficiary initially resided in the Seattle Region, but moved to the
San Francisco Region. We subsequently requested the Agency complete a suitability assessment
for both of these children’s payees. As of March 21, 2014, SSA had not completed those
assessments. According to SSA’s records, as of July 17, 2014, one child’s benefits were
terminated. The second child was in current pay and the payee had not been changed. The
remaining child’s representative payee became the child’s foster care parent after our review
began. Thus, it was not necessary for SSA to complete a suitability assessment for this payee.

Unsuitable Representative Payees
Of the 30 children served by unsuitable payees, SSA determined 15 had misused about
$87,000 in Social Security payments. SSA referred these 15 cases to our Office of Investigations
(OI) according to SSA’s Electronic Representative Payee System. OI closed 12 cases and
referred the cases to SSA for it to take any action it deemed appropriate. For example, a payee
claimed they had custody of a child. Additionally, the payee indicated that the child was only

Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)   4
out of her custody for 1 month during the prior year. However, a group home stated the child
resided there for 9 months before she relocated to another group home. During this time, the
group home did not receive any benefits from the child’s payee. After further review, SSA
determined the payee misused $15,045 of the child’s benefits from September 2011 to July 2013.
SSA suspended the child’s benefits until it can appoint a new payee. OI referred the case to the
Agency for it to take any action it deems appropriate. Of the remaining three, no SSA violation
was determined for one case. SSA changed the beneficiary’s payee. OI continues its
investigation for the remaining two cases. These two cases (numbers 7 and 8 in Table 2) relate
to siblings assigned the same representative payee, their mother. As of August 2014, our
investigators continue to try to locate the mother. We will refer the results of our investigation
for prosecution or to SSA for administrative action as deemed appropriate. See Table 2 for more
details about the payees SSA determined misused children’s Social Security payments.

                        Table 2: Representative Payees Misused Payments
                  Child                                                            Misuse
                                          Payment Misuse Period
               Beneficiaries                                                      Amount 12
                      1             September 1, 2011 - July 1, 2013               $15,045
                      2             September 16, 2011 - August 6, 2013            $12,523
                      3             September 1, 2012 - July 30, 2013               $9,233
                      4             February 8, 2012 - June 21, 2013                $7,318
                      5             October 1, 2012 - April 30, 2013                $5,376
                      6             October 1, 2012 - July 1, 2013                  $4,875
                      7             October 7, 2011 - June 30, 2013                 $4,595
                      8             October 7, 2011 - June 30, 2013                 $4,595
                      9             October 1, 2011 - September 30, 2012            $4,368
                    10              February 1, 2010 - July 30, 2010                $3,898
                    11              December 1, 2011 - June 30, 2013                $3,669
                    12              August 3, 2012 - October 3, 2013                $3,388
                    13              May 24, 2012 - April 12, 2013                   $3,243
                    14              January 1, 2012 - June 30, 2012                 $3,012
                    15              August 7, 2012 - June 30, 2013                  $1,398
                                                 Total Misuse                       $86,536




12
 When the misuse amount and/or period was not confirmed in SSA’s misuse determination, we used the suspected
misuse amount and/or period found in the Electronic Representative Payee System.



Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)         5
Of the 15 children whose payments were misused, SSA:

     stopped payments for 3,
     suspended payments for 2 while locating a new payee,
     changed payees for 9, and
     did not change the payee for 1.

The Agency reports it did not change the payee for one child because the payee gave all funds to
the child. This payee acted as a conduit payee. As of July 17, 2014, the Agency had not
changed the child’s payee. SSA policy states a conduit payee is one who turns over the full
amount of benefits to the beneficiary or to another person without giving any direction or
instruction about how to use the funds. 13 If SSA develops the child’s capability to manage their
own benefits, the Agency may determine the child no longer needs a payee.

For four children with unsuitable payees, SSA determined no misuse occurred. SSA reported
one child’s mother lost custody but continued visiting the child and using benefits for the child’s
needs. This information was based on statements provided by the child’s foster mother and
social worker. SSA concluded no misuse occurred. For the second child, the county agency
assigned the child’s aunt as legal guardian. The San Francisco Region reported the
representative payee provided the child’s payments to the legal guardian for shelter, food, and
school expenses. In the third instance, the child was unwilling to cooperate with the review, and
the Region could not contact the payee. Therefore, the Region could not provide substantial
evidence that misuse occurred. Again, SSA concluded no misuse occurred. In the final instance,
the foster parent stated the payee was providing funds for the child’s board, care, and
needs. However, the payee was recovering from drug and alcohol abuse and did not have
custody of the child. Thus, the Region determined the payee was unsuitable but did not misuse
funds. The Agency changed the payees serving three children. SSA terminated the fourth
child’s benefits.

Regarding the remaining 11 children with unsuitable payees, SSA did not complete misuse
determinations of whether misuse occurred. In May 2013, we requested the Agency complete
suitability assessments of payees serving certain children. However, as of July 16, 2014, SSA
records did not indicate the Agency had determined whether these unsuitable payees had
misused payments. As of July 17, 2014, for the 11 children without completed misuse
determinations, 7 children were in current pay and SSA had terminated payments for 1 and
suspended benefits for 3. Additionally, SSA changed the payee for 9 of the 11 children.

Suitable Representative Payees
SSA determined that 17 of the 50 children had suitable representative payees. We reviewed
information and documentation SSA provided to support its assessments of the payees serving


13
     SSA, POMS, GN 00605.066 B.2. (November 9, 2001).



Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)   6
the 17 children. SSA provided a document it developed to assess the suitability of the children’s
representative payees as well as determine whether any misuse occurred. We found this
information sufficient and reliable.

For example, information provided by the Agency indicated a child resided in a group home
from May to November 2012. The mother subsequently regained custody of the child.
However, neither the child’s mother nor the group home reported the change in custody to CDSS
or SSA. According to the mother, she provided for the child’s clothing and personal needs while
the child was out of her custody. The child’s probation officer confirmed that the mother met the
child’s needs and occasionally took the child home for the weekend. SSA determined the payee
was suitable and no misuse of Social Security payments occurred.

CONCLUSIONS
Our comparison of data from CDSS with SSA’s records identified 702 children with
representative payees who managed their Social Security payments, but those representative
payees were not a foster care agency or foster care parent. A CDSS official reported it did not
use SVES to determine whether children were receiving Social Security payments. As a result,
we believe CDSS was not always aware that a child in its foster care program was receiving
Social Security payments. SSA’s SVES allows States to determine whether a child is receiving
payments. With this information, the CDSS can determine whether it should apply to be a
child’s representative payee.

We identified 599 children who were also receiving at least $100 in monthly Social Security
payments and selected 50 children to review. SSA conducted representative payee suitability
assessments for 47 of the 50 children we selected. Of the 47, payees did not self-report
39 children’s placement in foster care. As of March 21, 2014, SSA did not determine whether
payees serving two children were suitable. However, according to SSA’s records, as of
July 17, 2014, one child’s benefits were terminated. The second child was in current pay and the
payee had not been changed. The remaining child’s representative payee became the child’s
foster care parent subsequent to our review beginning. Thus, it was not necessary for SSA to
complete a suitability assessment for this payee.

Of the 47 suitability assessments SSA performed, SSA determined representative payees for
30 children were unsuitable. Of those 30 children, SSA determined the payees serving
15 children misused about $87,000. As of July 16, 2014, SSA records did not indicate the
Agency had determined whether the 11 children’s unsuitable payees misused payments.

Based on our sample results, we estimate unsuitable representative payees served 359 children in
the California State foster care program. Of these, we estimate unsuitable payees misused about
$1 million in benefit payments for 180 children. If the Agency does not identify and replace the
unsuitable payees who misused Social Security payments, we estimate the payees will misuse an
additional $552,000 during the next 12 months.

Of the 599, we reviewed the remaining children to determine how many did not have a county
agency or foster care parent payee as of January 3, 2014. Further, we determined how many
children were still in current pay status or were receiving their benefits directly. Our review

Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)   7
determined 288 children had a representative payee other than a county agency or foster care
parent and were in current pay status.

RECOMMENDATIONS
We recommend SSA:

1. Advise CDSS to expand its use of SVES to include verifying whether a child is receiving
   SSA payments.

2. Complete suitability assessments of payees serving 2 children; complete misuse assessments
   of unsuitable payees serving 11 children; and appoint a new payee for 1 child whose
   representative payee committed misuse and continues to serve as the child’s payee.

3. Conduct suitability assessments for the representative payees associated with the remaining
   288 children in current pay status as of January 3, 2014 with payees who were not a county
   agency or the foster care parent(s).

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)   8
                                       APPENDICES




Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

   Reviewed applicable Federal laws and regulations and the Social Security Administration’s
    (SSA) policies and procedures.

   Identified and reviewed prior relevant audits.

   Held discussions with SSA staff and State of California Department of Social Services
    (CDSS) staff.

   Obtained from CDSS an electronic data extract of children in California’s foster care
    program as of October 12, 2012.

   Used SSA’s Enumeration Verification System to validate the Social Security numbers for
    CDSS’ foster care data.

   Performed a computerized comparison in December 2012 of the foster care data provided by
    CDSS with SSA’s Master Beneficiary and Supplemental Security Records to determine the

       number of children in California State’s foster care program receiving Old-Age,
        Survivors and Disability Insurance (OASDI) 1 and/or Supplemental Security Income
        (SSI) 2 payments managed by representative payees and

       number of children where the representative payee was someone other than the county
        agency or foster care parent.

   Based on this comparison of SSA and CDSS data, we identified 4,397 children in
    California’s foster care program receiving OASDI and/or SSI payments managed by
    representative payees.

       Identified 702 children where the representative payee was someone other than a county
        agency or the child’s foster care parent.

       Identified 599 of these 702 children who were receiving at least $100 in monthly Social
        Security payments.




1
 The OASDI program provides benefits to qualified, retirement-eligible and disabled workers and their dependents,
as well as to survivors of insured workers (Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.).
2
 The SSI program provides payments to individuals who have limited income and resources; and who are age 65 or
older, blind, or disabled (Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.).



Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)            A-1
   Randomly selected 50 children for review. After continuously reviewing and replacing
    children who (a) were no longer in foster care; (b) had their payee changed to a county
    agency or foster care parent; or (c) had their payments suspended, an additional 36 children
    were selected. We requested the Agency complete suitability determinations for
    50 children’s payees.

   Requested information from SSA regarding the suitability assessments it completed and the
    basis for those determinations.

   Reviewed such documents as the Master Beneficiary Record; the Supplemental Security
    Record; Electronic Representative Payee System notes; and Representative Payee System
    notes that supported the Agency’s decision on the suitability assessments of the
    representative payees. In addition, we considered the Agency’s detailed explanations about
    its payee assessments.

We performed our review at SSA’s Headquarters in Baltimore, Maryland, from March 2013 to
July 2014. We tested the data obtained for our review and determined it to be sufficiently
reliable to meet our objective. We conducted our review in accordance with the Council of the
Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.




Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)   A-2
Appendix B – SAMPLING METHODOLOGY
We obtained from the California Department of Social Services (CDSS) a file containing
children in California’s foster care program as of October 12, 2012. In December 2012, we
conducted a computerized comparison of CDSS foster care data with the Social Security
Administration’s (SSA) Master Beneficiary and Supplemental Security Records. This
comparison identified 4,397 children with representative payees in California’s foster care
program who were receiving Social Security payments. Of these children, we determined that
702 had representative payees who were not a county agency or the foster care parent. Of the
702, we identified 599 who were receiving at least $100 or more in monthly Social Security
payments. We focused our fieldwork on children with greater amounts of payments at risk.

From this population of 599 children, we randomly selected children for review. We initially
selected 50 children to review. We continuously updated the children in our sample by replacing
those who (a) were no longer in foster care; (b) had their payee changed to a county agency or
foster care parent; or (c) had their payments suspended. Consequently, of the 86 children
selected, 50 were included in our review.

The following tables provide details of our sample results, statistical projections, and estimates.
Of the 50 children in our sample, SSA determined 30 to be unsuitable. Projecting these results to
our sampling frame of 599 children, we estimate unsuitable payees served 359 children.

                     Table B–1: Number of Children with Unsuitable Payees
                             Projections                                   Number of Children
               Number of Children with Unsuitable Payees                           30
                            Point Estimate                                        359
                       Projection Lower Limit                                     287
                        Projection Upper Limit                                    426
          Note: All projections are at the 90-percent confidence level.

Of the 30 unsuitable payees, SSA determined 15 misused payments totaling approximately
$87,000. Projecting these results to our sampling frame of 599 children, we estimate unsuitable
payees misused $1 million in benefits for 180 children.

                      Table B–2: Number of Children with Payment Misuse
                              Projections                                  Number of Children
                  Number of Cases with Payment Misuse                               15
                             Point Estimate                                        180
                        Projection Lower Limit                                     120
                        Projection Upper Limit                                     250
           Note: All projections are at the 90-percent confidence level.




Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)   B-1
                               Table B–3: Amount of Payment Misuse
                               Projections                                 Amount of Misuse
                         Amount of Payment Misuse                               $86,536
                              Point Estimate                                 $1,036,701
                          Projection Lower Limit                               $582,060
                          Projection Upper Limit                             $1,491,343
           Note: All projections are at the 90-percent confidence level.

SSA determined 15 representative payees had misused benefit payments. If the Agency does not
identify and replace these unsuitable payees, additional Social Security payments may be
misused. To project these results, we reviewed each of the 15 cases of misuse to determine
whether the children’s payments would have continued had we not alerted the Agency. We
determined that nine children would have had an additional $46,084 paid over a 12-month span
after their misuse period. Projecting these results to our sampling frame of 599 children, we
estimate payees may misuse an additional $552,000 of benefits over the next 12 months.

              Table B–4: Additional Payments Misused (for a 12-Month Period)
                               if SSA Does Not Take Action
                              Projections                                    Amount of Misuse
           Amount of Future Payment Misuse (12-month period)                     $46,084
                             Point Estimate                                     $552,086
                        Projection Lower Limit                                 $ 254,371
                        Projection Upper Limit                                 $ 849,802
          Note: All projections are at the 90-percent confidence level.




Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)   B-2
Appendix C – AGENCY COMMENTS
July 02, 2014

Subject: OIG Review of Benefit Payments Managed by Representative Payees of
Children in California's Foster Care Program - San Francisco Response

Thank you for the opportunity to comment on the draft report “Benefit Payments
Managed by Representative Payees of Children in California’s Foster Care Program.”
We appreciate your staff’s efforts in this review. We found the review and findings
helpful, particularly the specific information about the foster children OIG obtained from
California Department of Social Services (CDSS). While our Field Offices have good
working relationships with the local foster care agencies, we are not always informed
when a minor beneficiary becomes a foster child. This information was helpful to
identify situations when the current payee may no longer be the most suitable payee.
The following are our specific comments on the three OIG recommendations:

        1. Advise CDSS to expand its use of SVES (State Verification and Exchange
        System) to include verifying whether a child is receiving SSA payments.

        SSA Comment: We agree with this recommendation.

        The San Francisco Region will continue working with CDSS and encourage
        CDSS to use SVES to identify children who receive SSA benefits. This
        information will be helpful for CDSS and local foster care agencies to make
        correct foster care eligibility determinations. We understand that most
        determinations of Federal foster care eligibility are predicated on whether the
        child met or would have met Temporary Assistance to Needy Families (TANF)
        eligibility requirements prior to foster care. Section 1137 of the act requires
        states’ to use the income and eligibility data available (SVES for SSA-held data)
        in establishing or verifying eligibility or benefit amounts for TANF (Title IV). The
        Administration of Children and Families (ACF) would likely need to require Foster
        Care Agencies to use SSA data for foster care eligibility determinations.

        In addition to CDSS using SVES, we will also encourage CDSS to have local
        foster care agencies contact the corresponding field offices in situations where
        the foster care agency identifies a child who receives benefits and enters foster
        care. This will allow SSA to properly evaluate the current payee's suitability in a
        timely manner and limit the likelihood of the payee misusing the child's benefits.

        2. Complete suitability assessments of payees serving 2 children; complete
        misuse assessments of unsuitable payees serving 12 children; and appoint a
        new payee for 1 child whose representative payee committed misuse and
        continues to serve as the child’s payee.

        SSA Comment: We agree with this recommendation.


Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)   C-1
        We will continue to address any potential misuse and payee suitability with these
        cases. As needed, we will take the necessary steps to select the most suitable
        payee for the child. We will also continue our development for potential misuse
        and make the appropriate determinations.

        3. Conduct suitability assessments for the representative payees associated with
        the remaining 288 children in current pay status as of January 3, 2014 with
        payees who were not a county agency or the foster care parent.

        SSA Comment: We agree with this recommendation. We look forward to
        receiving the information about the 288 children and reviewing the children's
        circumstances to ensure the children have the most suitable payee. As needed,
        we will address any situations of misuse.


Grace M. Kim
Regional Commissioner
Social Security Administration
Region IX – San Francisco




Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)   C-2
Appendix D – MAJOR CONTRIBUTORS
Shirley E. Todd, Director, Evaluation Division

Randy Townsley, Audit Manager

Bryan Kaminski, Auditor

Brennan Kraje, Statistician




Benefit Payments Managed by Payees of Children in California’s Foster Care Program (A-13-13-23029)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
